Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL




 SOME MICHIGAN CHILD CARE
  HOME PROVIDERS DID NOT
 ALWAYS COMPLY WITH STATE
HEALTH AND SAFETY LICENSING
      REQUIREMENTS


 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov.




                                            Gloria L. Jarmon
                                         Deputy Inspector General
                                            for Audit Services

                                                  July 2014
                                                A-05-13-00031
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

   Section 8L of the Inspector General Act, 5 U.S.C. App., requires
   that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

   The designation of financial or management practices as
   questionable, a recommendation for the disallowance of costs
   incurred or claimed, and any other conclusions and
   recommendations in this report represent the findings and
   opinions of OAS. Authorized officials of the HHS operating
   divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The 20 providers that we reviewed did not always comply with applicable State licensing
  requirements to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families provides Federal grants through several programs,
including Head Start and the Child Care and Development Fund (CCDF). In a recent report
summarizing the results of 24 audits of Head Start grantees, we described multiple health and
safety issues that put children at risk. To determine whether similar health and safety risks exist
at childcare providers that received CCDF funding, we audited 20 licensed family and group
child care homes (providers) that received CCDF funding in Michigan. We conducted this
review in conjunction with our review of 3 child care centers (report number A-05-13-00053).

OBJECTIVE

The objective of this review was to determine whether the Michigan Department of Education’s
(State agency) onsite monitoring ensured that providers that received CCDF funds complied with
State licensing requirements related to the health and safety of children.

BACKGROUND

The CCDF authorized by the Child Care and Development Block Grant Act and the Social
Security Act § 418 assists low-income families, families receiving temporary public assistance,
and families transitioning from public assistance to obtain childcare so that they may work or
obtain training or education. Combined funding for the CCDF program for fiscal year 2012,
including the block grant’s discretionary fund and the CCDF mandatory and matching funds, is
approximately $5.2 billion.

The State agency is the lead agency designated to administer the CCDF program, which helps
low-income families in Michigan pay for childcare. The Michigan Department of Human
Services, Bureau of Children and Adult Licensing (State licensing agency), is responsible for
onsite monitoring of licensed family care home providers.

As the lead agency, the State agency must monitor licensed providers. According to the Child
Care and Development Fund Plan for Michigan, the State licensing agency is responsible for
childcare licensing and enforcement personnel, who conduct inspections to ensure that providers
meet basic health and safety standards. State regulations mandate that the State licensing agency
must conduct inspections of providers at least once a year for group child care homes and at 10
percent of family child care homes in each county in each year.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                   i
WHAT WE FOUND

Although the State agency conducted the required inspections at all 20 of the providers that we
reviewed, this onsite monitoring did not ensure that providers that received CCDF funds
complied with State licensing requirements related to the health and safety of children. We
determined that all 20 of the providers that we reviewed did not comply with 1 or more State
licensing requirements to ensure the health and safety of children. Specifically, we found 19
providers did not always comply with requirements related to the physical condition of the
provider homes, 16 providers did not comply with records and supervision requirements, and 10
providers did not comply with required criminal records and protective services checks.

WHAT WE RECOMMEND

We recommend that the State agency work with the State licensing agency to:

    •   ensure adequate oversight by reducing licensing inspectors’ caseloads,

    •   ensure through more frequent onsite monitoring that providers comply with health and
        safety regulations,

    •   develop a mandatory training program to improve provider compliance with health and
        safety regulations, and

    •   ensure that providers obtain required criminal record checks and protective services
        checks for all child care employees who provide direct services to children.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our first
recommendation acknowledging the benefits of a reduced caseload. However, according to the
State agency, nearly tripling the number of licensing inspectors to reduce the caseload is unlikely
because it would require additional resources and funding. To address the concerns, the State
Agency discussed some alternative approaches including conducting a thorough analysis of the
current inspection process to identify potential efficiencies to ensure the optimal utilization of
existing licensing inspection staff. The State agency concurred with the remaining three
recommendations.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                               ii
                                                    TABLE OF CONTENTS

INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Michigan Childcare Services................................................................................ 2
               Related Office of Inspector General Work........................................................... 2
               Child Care Aware of America .............................................................................. 2
               Administration for Children and Families Proposed Regulations........................ 2

         How We Conducted This Review .................................................................................... 3

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With Physical Conditions Requirements ................ 4
                State Requirements ............................................................................................... 4
                Providers Did Not Comply With Physical Conditions Requirements ................. 4
                Fire Safety ............................................................................................................ 4
                Physical and Environmental Safety ...................................................................... 5

         Providers Did Not Always Comply With Records and Supervision Requirements ........ 7
                Staff Records ........................................................................................................ 7
                Supervision ........................................................................................................... 8

         Providers Did Not Always Comply With Required Criminal Records and
            Protective Services Checks ........................................................................................ 9
                State Requirements ............................................................................................... 9
                Providers Did Not Comply With Required Criminal Records and
                  Protective Services Checks ............................................................................... 9

         Cause of Noncompliance................................................................................................ 10

RECOMMENDATIONS .......................................................................................................... 10

STATE AGENCY COMMENTS ............................................................................................. 11

APPENDIXES

           A: Audit Scope and Methodology ............................................................................... 12

           B: Federal Regulations and State Licensing Regulations ............................................ 13


Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                                                               iii
        C: Photographic Examples of Noncompliance With
            Physical Conditions Requirements ...................................................................... 19

        D: Instances of Noncompliance at Each Child Care Home ......................................... 24

        E: State Agency Comments ......................................................................................... 25




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                                             iv
                                             INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited 20 licensed family 2 and
group 3 child care homes (providers) that received CCDF funding in Michigan. We conducted
this review in conjunction with our review of 3 child care centers (report number A-05-13-
00053).

OBJECTIVE

The objective of this review was to determine whether the Michigan Department of Education’s
(State agency) onsite monitoring ensured that providers that received CCDF funds complied with
State licensing requirements related to the health and safety of children.

BACKGROUND

Authorized by the Child Care and Development Block Grant (CCDBG) Act (42 U.S.C. 9859 et.
seq.) and section 418 of the Social Security Act (42 U.S.C. 618), the CCDF assists low-income
families, families receiving temporary public assistance, and families transitioning from public
assistance to obtain childcare so that they may work or obtain training or education. Combined
funding for the CCDF program for fiscal year 2012, including the block grant’s discretionary
fund and the CCDF mandatory and matching funds, is approximately $5.2 billion.

The CCDBG Act and (implementing) Federal regulations require the State to maintain a plan
that certifies that the State has requirements in State or local law to protect the health and safety
of children, and the plan must certify that procedures are in effect to ensure that childcare
providers comply with these requirements (42 U.S.C. 9858c(c)(2)(F)-(G) and 45 CFR
98.15(b)(5)-(6)).

Federal regulations (45 CFR 98.10) require States to designate a lead agency to administer the
CCDF program.


1
 Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503, issued
December 13, 2011).
2
  A “family child care home” means a private home in which one but fewer than seven minor children are received
for care and supervision for compensation for periods of less than 24 hours a day. Michigan Compiled Law
§ 722.111(1)(i)(iii).
3
 A “group child care home” means a private home in which more than 6 but not more than 12 minor children are
given care and supervision for periods of less than 24 hours a day. Michigan Compiled Law § 722.111(1)(i)(iv).

Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                               1
Michigan Childcare Services

The State agency is the lead agency designated to administer the CCDF program, which helps
low-income families in Michigan pay for childcare. The Michigan Department of Human
Services, Bureau of Children and Adult Licensing (State licensing agency), is responsible for
childcare licensing. The State agency shall certify that there are health and safety requirements
that apply to all providers caring for children receiving CCDF services that also may be covered
by licensing requirements.

According to the Child Care and Development Fund Plan for Michigan FFY 2012–2013, the
State licensing agency is responsible for childcare licensing and enforcement personnel, who
conduct inspections to ensure that providers meet basic health and safety standards. State
regulations mandate that the State licensing agency must conduct inspections of providers at
least once a year for group child care homes and to 10 percent of family child care homes in each
county in each year (Michigan Compiled Laws 722.118a and 722.119a).

Related Office of Inspector General Work

The Office of Inspector General, Office of Evaluation and Inspections (OEI), issued an Early
Alert Memorandum Report on July 11, 2013, to ACF entitled License-Exempt Child Care
Providers in the Child Care and Development Fund Program (OEI-07-10-00231). OEI
concluded that States may and do exempt many types of providers from licensing and that these
providers are still required to adhere to Federal health and safety requirements to be eligible for
CCDF payments.

Child Care Aware of America

Child Care Aware of America (CCAA) 4 reviewed and ranked State regulations for small family
childcare homes. 5 CCAA reported that without inspections or monitoring of providers,
regulations alone have limited value. CCAA added that when providers are not inspected, it is
difficult for a State to enforce its regulations and suspend or revoke the licenses of individuals
who are not in compliance. CCAA recommended that States increase inspections of providers to
at least once a year and that States reduce the caseload for licensing inspectors to a ratio of 1:50.

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 6 The proposed changes include a requirement that States’ “lead agencies” perform

4
 In 2012, the National Association of Child Care Resource & Referral Agencies changed its name to Child Care
Aware of America.
5
  CCAA works with more than 600 State and local Child Care Resource and Referral agencies nationwide. CCAA
leads projects that increase the quality and availability of childcare professionals, undertakes research, and advocates
childcare policies that positively impact the lives of children and families.
6
    78 Fed. Reg. 29441 (May 20, 2013).

Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                                   2
an initial onsite monitoring visit and at least one annual unannounced onsite visit of providers
that have received CCDF subsidies. The proposal also requires providers responsible for the
health and safety of children to receive specific and basic training commensurate with their
professional responsibilities. In addition, ACF stated that it strongly encourages lead agencies to
establish requirements for ongoing provider training.

HOW WE CONDUCTED THIS REVIEW

Of the 2,584 providers that received CCDF funding for the quarter ended March 31, 2013, we
selected 20 providers for our review. We based this selection on the availability of State
licensing consultants and their unannounced inspection dates. We accompanied State licensing
consultants on unannounced visits to homes that were due for inspection. We conducted
fieldwork in Lansing, Portage, Muskegon, Twin Lakes, Niles, Kalamazoo, Oak Park, Ortonville,
Marysville, Pontiac, Southfield, Waterford, Farmington Hills, and Sterling Heights, Michigan.
We conducted unannounced site visits from June 13 to August 6, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details
on the Federal regulations and State licensing health and safety requirements that pertain to
providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements.

                                               FINDINGS

Although the State agency conducted the required inspections at all 20 of the providers that we
reviewed, this onsite monitoring did not ensure that providers that received CCDF funds
complied with State licensing requirements related to the health and safety of children. We
determined that all 20 of the providers that we reviewed did not comply with 1 or more State
licensing requirements to ensure the health and safety of children. Specifically, we found 19
providers did not always comply with requirements related to the physical condition of the
provider homes, 16 providers did not comply with records and supervision requirements, and 10
providers did not comply with required criminal records and protective services checks.

Appendix D displays a table that contains the instances of noncompliance at each provider we
reviewed.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                               3
PROVIDERS DID NOT ALWAYS COMPLY WITH
PHYSICAL CONDITIONS REQUIREMENTS

State Requirements

Family home applicants receive a certificate of registration after submitting a complete
application, attending an orientation session, and submitting the statement of registration
(provided at the orientation session). The statement of registration must be submitted after the
applicant has determined that he/she is in compliance with the Child Care Organizations Act
(1973 PA 116) and the licensing rules for operating a family child care home.

Group child care home applicants must submit a complete application, attend an orientation
session, and be in full compliance with the Child Care Organizations Act and the licensing rules
for operating a group child care home.

Appendix B contains all relevant State licensing regulations.

Providers Did Not Comply With Physical Conditions Requirements

We determined that 19 of the 20 providers that we reviewed did not comply with applicable
requirements related to fire safety or the physical and environmental safety of the provider
homes to ensure the health and safety of children.

Fire Safety

State Requirements

The State requires providers to ensure, among other requirements:

    •   At least one exit from each floor level shall provide a direct, safe means of unobstructed
        travel to the outside at street or ground level (R 400.1943(1-2,11)).

    •   All electrical outlets accessible to children shall have safety covers. Electrical cords shall
        be arranged so they are not hazards to children (R 400.1942(2-3)).

    •   A home shall have at least one functioning multipurpose fire extinguisher properly
        mounted (R 400.1944(3)).

    •   Operable smoke detectors shall be installed and maintained on each floor of the home
        (R 400.1944(1)).

    •   A carbon monoxide detector shall be placed on all levels approved for childcare
        (R 400.1934(3)).




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                  4
    •   A written plan for the care of children shall be established and posted for fire evacuation,
        tornado watches and warnings, serious accident or injury, and water emergencies, if
        applicable (R 400.1945(1)(a-d)).

Providers Did Not Comply With Fire Safety Requirements

We determined that 14 of the 20 providers that we reviewed had 1 or more instances of
noncompliance with fire safety requirements. Examples of noncompliance included:

    •   cluttered or blocked pathways or inadequate exits that would be used to escape a fire
        (Appendix C, photograph 1),

    •   electrical outlets and cords presenting a hazard to children (Appendix C, photograph 2),

    •   a fire extinguisher that was not mounted on a wall as required and was difficult for the
        caregiver to locate,

    •   inoperable carbon monoxide and smoke detectors, and

    •   written emergency plans were not posted.

Physical and Environmental Safety

State Requirements

The State requires providers to ensure, among other requirements:

    •   A child care home shall provide not less than 35 square feet per child of safe, usable,
        accessible indoor floor space, not including bathrooms and storage areas (R 400.1915(1)).

    •   All bedding and equipment shall be in accordance with U.S. Consumer Product Safety
        Commission standards (R 400.1916(1)).

    •   A child care home shall provide a clean, safe, and hazard free outdoor play area, on the
        premises or within a reasonable walking distance of the home (R 400.1920(1)).

    •   The caregiver shall ensure that barriers exist to prevent children from gaining access to
        any swimming pool, … or other body of open water located on or adjacent to the
        property where the child care home is located (R 400.1921(1)).

    •   All caregiving staff shall wash their hands appropriately before and after preparing and
        serving food, eating, and feeding (R 400.1924(1)(a)(i)).

    •   Food shall be prepared, served, and stored in a safe and sanitary manner
        (R 400.1931(4)(b)).

Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                 5
    •   The structure, premises, and furnishings of a child care home shall be in good repair and
        maintained in a clean, safe, and comfortable condition. All dangerous and hazardous
        materials or items shall be stored securely and out of the reach of children. There shall be
        no flaking or deteriorating paint on interior and exterior surfaces, equipment, and toys ac-
        cessible to children (R 400.1932(1,2,6)).

    •   Litter boxes, pet food and dishes, and pet toys shall be inaccessible to children
        (R 400.1936(5)).

    •   All flame-producing and heat-producing equipment, including, but not limited to a
        furnace and water heater shall be maintained in a safe condition and shielded to protect
        against burns (R 400.1941(1)(a-b)).

    •   A caregiver shall post the current license in a conspicuous place (R 400.1903(1)(g)).

Providers Did Not Comply With Requirements for Physical and Environmental Safety

We determined that 18 of the 20 providers that we reviewed had 1 or more instances of
noncompliance with physical and environmental safety requirements. Examples of
noncompliance included:

    •   outdoor play areas or walkways that were not kept free from hazards (e.g., chemicals,
        wooden fences with exposed nails, sheds not in good repair, rakes, fire pits, spare siding
        and other sharp objects in the play area) (Appendix C, photographs 3–6);

    •   outdoor play equipment covered in dirt and that had chipped and peeling paint
        (Appendix C, photograph 7);

    •   outdoor play equipment that did not have enough wood chips or other absorbent material
        underneath and had protruding bolts that were not adequately shielded from the children;

    •   a swimming pool located next to the children’s outdoor play area and accessible to
        children by a broken wooden gate;

    •   dog feces found in the outdoor play area;

    •   indoor play areas not kept free from hazards (e.g., household cleaners, medication, pet
        waste, scissors, and other sharp objects were accessible to children);

    •   furniture or other items or structures that were not stable or secured to prevent tipping
        onto a child (e.g., a large box television set on an unstable stand close to a play area and a
        bathroom cabinet that was not anchored to the wall);

    •   a basement sump pump not properly shielded by a cover and accessible to children;

    •   chemicals labeled “flammable” were stored near the furnace and water heater;
Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                  6
    •   household clutter on kitchen and dining room tables, desks, countertops, and near the
        furnace and water heater (Appendix C, photograph 8);

    •   food in the kitchen sink (Appendix C, photograph 9), a soiled diaper, and trash were not
        disposed of properly;

    •   caregivers did not wash their hands before preparing food for the children and worked in
        an unsanitary environment (a kitchen with dirty dishes stored on a stovetop and a cutting
        board with pet food on it used to cut an apple for the children to eat) (Appendix C,
        photograph 9);

    •   pet food and water bowls were accessible to children;

    •   children had insufficient indoor play space because the living room area where children
        were being cared for was congested with furniture, and there was not enough space to
        ensure appropriate activities, safety, and comfort for the children;

    •   insufficient children’s bathroom lighting (e.g., light broken and no window);

    •   food in the kitchen not kept covered (e.g., perishable food left sitting on the counter
        during our entire visit, which lasted well over an hour);

    •   meals prepared on a stovetop directly below a water-damaged ceiling that was flaking
        paint and sheetrock (Appendix C, photograph 10);

    •   inadequate sleeping arrangements (e.g., providers using recalled cribs that did not comply
        with Consumer Product Safety Commission standards); and

    •   a provider did not post their license in a place where parents could see it and was unable
        to locate it at all.

PROVIDERS DID NOT ALWAYS COMPLY WITH RECORDS AND
SUPERVISION REQUIREMENTS

We determined that 16 of the 20 providers that we reviewed did not comply with applicable
requirements related to staff records and supervision requirements to ensure the health and safety
of children.

Staff Records

State Requirements

Providers shall ensure that they and their assistant caregivers have proof of valid
cardiopulmonary resuscitation (CPR), first aid, and bloodborne pathogen training. In addition,
the provider shall complete not less than 10 clock hours of training each year related to child
development, program planning, and administrative management for a childcare business and
Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                  7
ensure each assistant caregiver completes not less than 5 clock hours of training each year related
to child development and caring for children. Specifically, the State requires providers to ensure,
among other requirements:

      •    caregiver CPR training (R 400.1902(1)(d)),

      •    caregiver and assistant caregiver annual training (R 400.1905(1,2,7)),

      •    records of caregiving staff (R 400.1906(1)(b-c,g)), and

      •    a self-certifying statement confirming compliance with these rules is required for any
           assistant caregiver under the age of 18, including those who are household members. 7

Providers Did Not Comply With Requirements for Staff Records

We determined that 15 of the 20 providers that we reviewed had 1 or more instances of
noncompliance with staff record requirements. Examples of noncompliance included lack of
current CPR, first aid, bloodborne pathogens, and annual training for both providers and assistant
caregivers. In addition, providers were missing medical clearances and signed statements by
several assistant caregivers indicating at the time of hiring that they were aware that abuse and
neglect of children is unlawful and that the law mandates them to report child abuse and neglect.

Supervision

State Requirements

The ratio of caregiving staff to children present in the home at any one time shall be not less than
one caregiving staff person to six children. The ratio shall include all unrelated children in care
and specified children who are less than 7 years of age (R 400.1910(1,2)).

Providers shall assure appropriate care and supervision of children at all times. A caregiver or
adult assistant caregiver shall be present in the home and know the location of each child at all
times when children are in care (R 400.1911(1,2,4,6)).

Providers Did Not Comply With Requirements for Supervision

At one provider, nine children were in the care of just the provider. After a few minutes, a
backup assistant caregiver arrived. The assistant caregiver left to run errands when only six
children were present. Shortly after, three more children arrived earlier than their normal time,
causing the provider to exceed the children-to-staff ratio.

Another provider was away from the home on a field trip with a few of the children when we
arrived. The assistant caregivers were present with the rest of the children. About half an hour
into our visit, we inspected the upper level of the house and discovered an additional child
7
    See Michigan Department of Human Services, Assistant Caregiver Certifications, BCAL-4595 (Rev. 8-13).

Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                         8
sleeping in a pack-n-play in a bedroom not normally used by daycare children. The provider and
assistant caregivers were unaware the child was there.

PROVIDERS DID NOT ALWAYS COMPLY WITH REQUIRED
CRIMINAL RECORDS AND PROTECTIVE SERVICES CHECKS

State Requirements

In Michigan, the regulations require criminal record checks to assess the good moral character
and suitability of the childcare home family (R 400.1903(5,7)). Per changes to the Child Care
Organizations Act (116 PA 1973) effective December 22, 2010, providers must perform a
criminal history clearance on an individual using the Michigan State Police Internet Criminal
History Access Tool (ICHAT) before making a final offer of employment to that individual. 8
Caregivers shall maintain a file for the caregiver and each assistant caregiver, including a
statement signed by each assistant caregiver that he or she has not been convicted of either child
abuse or child neglect or a felony involving harm or threatened harm to an individual within the
10 years immediately preceding the date of hire (R 400.1906(1)(e)). To demonstrate compliance
with this rule, the caregiver must have a copy of the ICHAT results for each assistant caregiver
per the Child Care Organizations Act. In addition, providers must obtain a Central Registry
Clearance on the individual directly from the State licensing agency documenting that the
assistant caregiver has not been involved in substantiated child abuse or neglect 9
(R 400.1906(1)(f)).

Providers Did Not Comply With Required Criminal Records and
Protective Services Checks

We determined that 10 of the 20 providers that we reviewed had 1 or more assistant caregivers
who lacked 1 or more of the required criminal records checks. Specifically, we found that of
these 33 assistant caregivers:

        •   6 did not have a criminal history check completed at all;

        •   8 criminal history checks were not completed until after an offer of employment was
            made;

        •   2 criminal history checks were not completed until after our site visit; and

        •   2 had criminal history checks, but we were unable to determine completion before an
            offer of employment was made.




8
    Michigan Compiled Law § 722.115d.
9
    Michigan Compiled Law § 722.119.

Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                               9
We determined that 5 of the 20 providers that we reviewed had 1 or more assistant caregivers
who lacked 1 or more of the required protective services checks. Specifically, we found that of
these 33 assistant caregivers, 6 Central Registry Clearances were not completed at all.

CAUSE OF NONCOMPLIANCE

On the basis of our discussion with State officials and our review of the State licensing
regulations, noncompliance with State requirements occurred because the State licensing agency
is required to make unannounced visits of providers at least once a year for group child care
homes and at 10 percent of family child care homes in each county in each year. In Michigan,
the average ratio of licensing inspectors to programs is 1:172. Special investigations, initiated by
complaints, delay regular, unannounced visits. CCAA recommended that States increase
inspections of providers to at least once per year and that States reduce the caseload for licensing
inspectors to a ratio of 1:50.

Our discussions with State officials confirmed that additional provider training would help to
educate providers on health and safety regulations. Currently, the licensing department discusses
these regulations at the time of initial inspection and again at the time of an unannounced
visit. Because unannounced inspections occur once a year for group childcare homes and at
10 percent of family childcare homes in each county in each year, the licensing department does
not often identify health and safety violations when they first occur or identify when a provider
might need additional training. Therefore, some health and safety violations may exist several
years before a State licensing inspector discovers a problem that places children at risk.

                                       RECOMMENDATIONS

We recommend that the State Agency work with the State licensing agency to:

    •   ensure adequate oversight by reducing licensing inspectors’ caseloads,

    •   ensure through more frequent onsite monitoring that providers comply with health and
        safety regulations,

    •   develop a mandatory training program to improve provider compliance with health and
        safety regulations, and

    •   ensure that providers obtain required criminal record checks and protective services
        checks for all child care employees who provide direct services to children.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                               10
                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our first
recommendation acknowledging the benefits of a reduced caseload. However, according to the
State agency, nearly tripling the number of licensing inspectors to reduce the caseload is unlikely
because it would require additional resources and funding. To address the concerns, the State
Agency discussed some alternative approaches including conducting a thorough analysis of the
current inspection process to identify potential efficiencies to ensure the optimal utilization of
existing licensing inspection staff. The State agency concurred with the remaining three
recommendations.

The State agency’s comments are included in their entirety as Appendix E.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                              11
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Of the 2,584 providers in Michigan that received CCDF funding for the quarter ended March 31,
2013, we selected 20 providers for our review. We based this selection on the availability of
State Licensing Consultants and their unannounced inspection dates. We accompanied State
Licensing Consultants on unannounced visits to homes due for inspection.

We conducted a review of the provider’s records and facilities as of August 2013. To gain an
understanding of the State Agency’s operations, as they relate to child care providers, we limited
our review to the State Agency’s internal controls as they related to our objective.

We conducted fieldwork in Lansing, Portage, Muskegon, Twin Lakes, Niles, Kalamazoo, Oak
Park, Ortonville, Marysville, Pontiac, Southfield, Waterford, Farmington Hills, and Sterling
Heights, Michigan. We conducted these unannounced site visits from June 13 to August 6, 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, State statutes, and regulations for licensing providers
        and the applicable Michigan CCDF State plan approved by ACF;

    •   interviewed the CCDF program staff to determine how Michigan monitored its providers;

    •   developed a health and safety check list as a guide for conducting site visits;

    •   conducted unannounced site visits (inspections) at the 20 providers we selected for
        review;

    •   interviewed providers to obtain a listing of staff to determine whether all required
        criminal history records checks were conducted; and

    •   discussed the results of our review with State licensing officials and State agency
        officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                 12
APPENDIX B: FEDERAL REGULATIONS AND STATE LICENSING REGULATIONS

FEDERAL REGULATIONS

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations (45 CFR pt. 98.1(a)(5)).

The lead agency must certify that there are in effect within the State (or other area served by the
lead agency) under State or local (or tribal) law, requirements designed to protect the health and
safety of children that are applicable to childcare providers that provide services for which
assistance is made available under the CCDF (45 CFR pt. 98.15(b)(5)).

STATE STATUTES AND REGULATIONS

The CCDF plan for Michigan requires the State licensing agency to conduct inspections to
ensure that providers meet basic health and safety requirements. The State licensing agency is
the State agency responsible for licensing of child care homes.

Michigan General Statutes

Michigan Compiled Law 722.111(1)(i)(iii) – Family Child Care Home

A family child care home is a private home in which 1 but fewer than 7 minor children are
received for care and supervision for compensation for periods of less than 24 hours a day.

Michigan Compiled Law 722.111(1)(i)(iv) – Group Child Care Home

A group child care home is a private home in which more than 6 but not more than 12 minor
children are given care and supervision for periods of less than 24 hours a day.

The State Licensing Rules for Family and Group Child Care Homes are within
sections R 400.1901 through R 400.1963. Within these licensing rules, we used the sections
listed below to identify the instances of noncompliance.

Fire Safety

R 400.1934(3,5) – Heating; ventilation; lighting

A carbon monoxide detector, bearing a safety certification mark of a recognized testing
laboratory such as UL (Underwriters Laboratories) or ETL (Electrotechnical Laboratory), shall
be placed on all levels approved for child care. All child-use areas shall have adequate natural
and/or artificial lighting.

R 400.1942(2,3) – Electrical service; maintenance

All electrical outlets, including outlets on multiple outlet devices, accessible to children shall
have safety covers. Electrical cords shall be arranged so they are not hazards to children.
Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                  13
R 400.1943(1,2,11) – Exit and escape requirements for each floor level used by children

All child care homes shall have at least 2 remotely located exits for every floor level occupied by
children. At least 1 exit from each floor level shall provide a direct, safe means of unobstructed
travel to the outside at street or ground level. Only steps and platforms shall be used to access a
basement window exit and shall be permanently secured to the wall or floor. Ladders shall not
be used as a means for exiting.

R 400.1944(1,3) – Smoke detectors; fire extinguishers

Operable smoke detectors approved by a nationally recognized testing laboratory shall be
installed and maintained on each floor of the home, including the basement, and in all sleeping
areas and bedrooms used by children in care. A home shall have at least 1 functioning
multipurpose fire extinguisher, with a rating of 2A-10BC or larger, properly mounted not higher
than 5 feet from the floor to the top of the fire extinguisher, on each floor level approved for child
use.

R 400.1945(1,3,4) – Fire; tornado; serious accident and injury plans

A written plan for the care of children shall be established and posted for each of the following
emergencies:

    •   Fire evacuation,

    •   Tornado watches and warnings,

    •   Serious accident or injury,

    •   Water emergencies, if applicable.

Fire drills shall be practiced at least once a month and a written record that includes the date and
time it takes to evacuate shall be maintained. Tornado drills shall be practiced once a month,
April to October, and a written record that includes the date shall be maintained.

Physical and Environmental Safety

R 400.1903(1)(g) – Caregiver responsibilities

A caregiver is responsible for posting the current license or certificate of registration in a
conspicuous place.

R 400.1903(8) – Caregiver responsibilities

The caregiver shall assure that smoking does not occur in the child care home and on the
premises while children are in care and conspicuously post on the premises a notice stating that
smoking is prohibited on the premises during child care hours.
Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                  14
R 400.1913(1) – Discipline and child handling

The caregiver shall develop and have on file a written policy regarding the discipline of children.

R 400.1915(1) – Indoor space; play equipment and materials

A child care home shall provide not less than 35 square feet per child of safe, usable, accessible
indoor floor space, not including bathrooms and storage areas.

R 400.1916(1,9,10,12) – Bedding and sleeping equipment

All bedding and equipment shall be in accordance with U.S. Consumer Product Safety
Commission (http://www.cpsc.gov/) standards as approved for the age of the child using the
equipment and shall be clean, comfortable, safe, and in good repair.

Children 12 to 24 months of age shall rest or sleep alone in an approved crib, porta-crib, or on a
cot or mat sufficient for the child’s length, size, and movement.

Infant car seats, infant seats, infant swings, bassinets, highchairs, waterbeds, adult beds, soft
mattresses, sofas, beanbags, or other soft surfaces are not approved sleeping equipment for
children 24 months of age or younger.

Children over 24 months of age shall have an individual, age appropriate, clean, comfortable and
safe place to sleep or rest. The floor shall be used only when padded, warm, and free from drafts
and when there is a mat, sleeping bag, blanket, or similar piece of bedding between the floor and
the child.

R 400.1920(1,5) – Outdoor play area and equipment

A child care home shall provide a clean, safe, and hazard free outdoor play area, on the premises
or within a reasonable walking distance of the home.

When swings, climbers, slides, and other similar play equipment with a designated play surface
above 30 inches are used, they shall not be placed over concrete, asphalt, or a similar surface,
such as hard-packed dirt or grass.

R 400.1921(1) – Water hazards and water activities

The caregiver shall ensure that barriers exist to prevent children from gaining access to any
swimming pool, drainage ditch, well, natural or constructed pond or other body of open water
located on or adjacent to the property where the child care home is located. Such barriers shall
be of a minimum of 4 feet in height and appropriately secured to prevent children from gaining
access to such areas.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                 15
R 400.1924(1) – Hand washing

All caregiving staff shall wash their hands appropriately before and after preparing and serving
food, eating, and feeding.

R 400.1931(4) – Food preparation and service

Food shall be prepared, served, and stored in a safe and sanitary manner. Prepared food that has
not been served to individuals or placed in family-style containers shall be promptly covered
after preparation and stored appropriately.

R 400.1932(1,2,6) – Home maintenance and safety

The structure, premises, and furnishings of a child care home shall be in good repair and
maintained in a clean, safe, and comfortable condition. All dangerous and hazardous materials
or items shall be stored securely and out of the reach of children. There shall be no flaking or
deteriorating paint on interior and exterior surfaces, equipment, and toys accessible to children.

R 400.1936(5) – Animals and pets

Litter boxes, pet food and dishes, and pet toys shall be inaccessible to children.

R 400.1941(1) – Heat-producing equipment

All flame-producing and heat-producing equipment, including, but not limited to a furnace and
water heater shall be maintained in a safe condition and shielded to protect against burns.

Staff Records

R 400.1902(1) – Caregiver and child care home family

An applicant shall have proof of valid infant/child/adult [CPR], first aid, and blood-borne
pathogen training.

R 400.1905(1,2, 4,7) – Training

The caregiver shall complete not less than 10 clock hours of training each year related to child
development, program planning, and administrative management for a child care business, not
including CPR, first aid, and blood-borne pathogen training.

Each assistant caregiver shall complete not less than 5 clock hours of training each year related
to child development and caring for children, not including CPR, first aid, and blood-borne
pathogen training.

Infant, child, and adult CPR and first aid training shall be maintained each year for CPR and
every 36 months for first aid.

Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                  16
R 400.1906(1) – Records of caregiving staff and child care home family; record maintenance

The caregiver shall maintain a file for the caregiver and each assistant caregiver including all of
the following:

    •   A statement signed by a licensed physician or his or her designee and which attests to the
        individual’s mental and physical health.

            o For the caregiver, within 1 year before issuance of the certificate of registration or
              initial license and at the time of subsequent renewals.

            o For the assistant caregivers, within 1 year prior to caring for children and at the
              time of subsequent renewals.

    •   Written evidence of freedom from communicable tuberculosis (TB):

            o For the caregiver, before issuance of the certificate of registration or initial
              license.

            o For the assistant caregivers, prior to caring for children.

    •   Training records.

    •   A written statement signed and dated by the assistant caregiver at the time of hiring
        indicating all of the following information:

            o The individual is aware that abuse and neglect of children is unlawful.

            o The individual knows that he or she is mandated by law to report child abuse and
              neglect.

            o The individual has received a copy of the discipline policy.

Supervision

R 400.1910(1,2) – Ratio of caregiving staff to children

The ratio of caregiving staff to children present in the home at any 1 time shall be not less than 1
caregiving staff person to 6 children. The ratio shall include all unrelated children in care and
any of the following children who are less than 7 years of age:

    •   Children of the caregiver.

    •   Children of the assistant caregiver.


Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                 17
    •   Children related to any member of the child care home family by blood, marriage, or
        adoption.

For each caregiving staff person, not more than 4 children shall be under the age of 30 months,
with not more than 2 of the 4 children under the age of 18 months.

R 400.1911(1,2,4,6) – Supervision

The caregiver shall assure appropriate care and supervision of children at all times. A caregiver
or adult assistant caregiver shall be present in the home at all times when children are in care.
Caregiving staff shall know the location of each child at all times. A caregiver or adult assistant
caregiver shall at all times directly supervise children who are engaged in water activities or are
near collections or bodies of water.

Criminal Record and Protective Services Checks

R 400.1903(5,7) – Caregiver responsibilities

The caregiver shall assure that all assistant caregivers shall be of good moral character and be
suitable to assure the welfare of children. The caregiver shall authorize the department to
conduct a criminal history and protective service background check to assess the good moral
character and suitability of the child care home family.

R 400.1906(1)(e-g) – Records of caregiving staff and child care home family; record
maintenance.

The caregiver shall maintain a file for the caregiver and each assistant caregiver including a
statement signed by each assistant caregiver that he or she has not been convicted of either of
child abuse or child neglect or a felony involving harm or threatened harm to an individual
within the 10 years immediately preceding the date of hire. The caregiver shall also maintain
documentation for each assistant caregiver from the Department of Human Services that the
assistant caregiver has not been involved in substantiated child abuse or neglect. In addition, the
assistant caregiver must sign and date at the time of hire that the individual is aware abuse and
neglect of children is unlawful, is mandated by law to report child abuse and neglect, and has
received a copy of the discipline policy.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                18
      APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                   PHYSICAL CONDITIONS REQUIREMENTS




                                  Photograph 1: Emergency exit blocked by
                                  laundry chemicals and with no handrail on
                                  the steps.




                            Photograph 2: An electrical outlet protruding from the
                            wall and covered with duct tape.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                  19
                      Photograph 3: Chemicals in outdoor shed accessible to
                      children.




                  Photograph 4: Yard fertilizer and rusty lawn tools within reach
                  of children.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                 20
                 Photograph 5: Boards with exposed rusty nails accessible
                 to children.




            Photograph 6: Sharp edges of broken fire pit accessible to children.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                21
                   Photograph 7: Outdoor play equipment had flaking paint and
                   was very dirty.




                    Photograph 8: Clutter and laundry chemicals accessible
                    to children.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)             22
                Photograph 9: Standing water and food in sink, and pet food on the
                counter where food is prepared for children.




                 Photograph 10: Water-damaged ceiling with paint and sheetrock
                 flaking off over the cooktop. Food was left sitting open on the counter
                 after lunch was served.



Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                        23
              APPENDIX D: INSTANCES OF NONCOMPLIANCE AT EACH
                              CHILD CARE HOME




                                                                                    Criminal Record
                         Physical and                                                     and
Provider Fire           Environmental                                                  Protective
Home # Safety               Safety              Staff Records         Supervision   Services Checks
    1      0                   1                       2                  0                 0
    2      2                  12                       1                  0                 0
    3      4                   7                       5                  0                 1
    4      1                   3                       5                  1                 6
    5      0                   1                       0                  0                 0
    6      2                   1                       0                  0                 2
    7      2                   8                       4                  0                 0
    8      0                   2                       7                  0                 4
    9      1                   1                      11                  0                 4
   10      3                   2                       8                  0                 1
   11      2                   1                       1                  0                 0
   12      2                   5                       3                  0                 1
   13      2                   0                       5                  0                 0
   14      0                   1                       0                  1                 0
   15      0                   2                       0                  0                 1
   16      5                   5                       0                  0                 2
   17      3                   9                       1                  0                 0
   18      2                   6                       4                  0                 0
   19      0                   0                       3                  0                 0
   20      3                   8                       7                  0                 2
 Total    34                  75                      67                  2                24

Notice: We provided to the State licensing agency under a separate cover the specific names of
the providers we audited.




Some Michigan Child Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                   24
                            APPENDIX E: STATE AGENCY COMMENTS 





                                                   STATE OF MICHIGAN
                                           DEPARTMENT OF EDUCATION
         R ICK SNYDER                                    L ANSING                                 MICHAEL P. FLANAGAN
           GOVERNOR                                                                               STATE SUPERINTENDENT



        May 28, 2014



        Sheri L. Fulcher
        Regional Inspector General for Audit Services
        Office of Inspector General
        Office of Audit Services, Region V
        233 North Michigan, Suite 1360
        Chicago, IL 60601

        RE: Report Number A-05-13-00031

        Dear Ms. Fulcher:

        This letter provides the Michigan response to your April 22, 2014 draft report #A-05-13-00031
        entitled: Some Michigan Family Day Care Homes Providers Did Not Always Comply With State
        Health and Safety Licensing Requirements.

        We have attached our formal response to your four recommendations. The Michigan Department of
        Education, lead agency, and the Department of Human Services, regulatory agency for licensing,
        collaboratively worked on this response and we concur with your recommendations for how we can
        improve our efforts to ensure the health and safety of children in Michigan.

        If you have any further questions or need additional information, please contact Lisa Brewer
        Walraven at brewer-walravenl@michigan.gov or (517) 373-4116.




    ~;:~
       -       c=;__

        Michael P. Flanag
                                                            ~t!
                                                            Mauca D. Corrigan     ~
                                                                                                  .
        State Superintend nt                                Dir.e ctor
        Michigan Department of Education                    Michigan Department of Human Services

        Enclosure

        cc: Lisa Brewer Walraven, MOE 

            Naomi Krefman, MOE 

            Jane Schultz, MOE 

            Kyle Guerrant, MOE 

            Susan Broman, MOE 

                                                STATE BOARD OF EDUCATION

                             JOHN C . AUSTIN -PRESIDENT • CASANDRA E. ULBRICH- VICE PRESIDENT 

                                  DANIEL VARNER- SECRETARY • RICHARD ZElLE- TREASURER 

                                MICHELLE FECTEAU- NASBE DELEGATE o LUPE RAMOS·MONTIGNY 

                                          KATHLEEN N . STRAUS • EILEEN LAPPIN WEISER 


                             608 WEST ALLEGAN STREET • P.O. BOX 30006 • LANSING, MICHIGAN 48909
                                            www.michlgan.gov/mde • (517) 373·3324




Some lvlichigan Child Care Home Providers DidNot Aiwqys Comply
With State Health and Safety licensing Requirements (A-05-13-00031)                                                      25
                                                                                          Page 1 of2


                  State of Michigan Response to Federal OIG HHS Health and Safety Draft 

                             Report for Fami ly Home Providers - A-05-13-00031 



                OIG RECOMMENDATION #1 - Ensure adequate oversight by reducing licensing
                inspectors' caseloads .

                State of Michigan Response- The State of Michigan partially concurs with this
                recommendation.

                The State currently employs 68 child care licensing inspectors responsib le for
                10,397 child care facilities resulting in a 1:153 caseload ratio. To implement the
                1 :50 ratio recommended by Child Care Aware of America, the State of Michigan
                would be required to increase licensing inspector staff by 140 positions (+206%).
                While the State acknowledges the benefits of the 1:50 recommendation, nearly
                tripling the number of licensing inspectors is unlikely at this time as it would
                require additiona l resources and funding.

                However, to address the concerns cited in the audit report, the State will conduct
                a thorough analysis of the current inspection process to 1.) ensure that existing
                licensing inspector resources are applied to areas that provide the greatest
                assurance regarding the health and safety of the children served; and, 2.) identify
                any potential efficiencies in the inspection process to ensure optimal utilization of
                existing licensing inspection staff.

                OIG RECOMMENDATION #2 - Ensure through more frequent onsite monitoring
                that providers comply with health and safety regulations.

                State of Michigan Response- The State of Michigan concurs with this
                recommendation.

                Michigan law requires onsite visits of a sample of at least 10% of family child
                care homes in each county each year. The State has surpassed the 10%
                requirement for the past two years and is on target to exceed this requirement
                again in 2014.

                The State is currently reviewing statutory and policy solutions that will allow even
                greater inspection frequency.

                OIG RECOMMENDATION #3- Develop a mandatory training program to
                improve provider compliance with health and safety regulations.

                State of Michigan Response- The State of Michigan concurs with this
                recommendation. The State will begin to exp lore the deve lopment of a training
                curriculum involving health and safety regulations that will be required for all




Some lvlichigan Child Care Home Providers DidNot Aiwqys Comply
With State Health and Safety licensing Requirements (A-05-13-00031)                                     26
                                                                                         Page2of 2

                licensed child care providers. The State will collaborate with our child care
                partners to review and enhance existing training opportun ities currently available.

                OIG RECOMMENDATION #4 -Ensure that providers obtain required criminal
                record checks and protective services checks for all child day care employees
                who provide direct services to children .

                State of Mich igan Response- The State of Michigan concurs with this
                recommendation. The State has an effective process in place to track and
                monitor crim inal background checks on child care license holders. Michigan
                relies on license holders to comply with background check requirements
                regarding their employees. Ensuring that background checks are performed on
                license holder employees has been, and will continue to be, a point of emphasis
                during the inspection process. Penalties for non-compliance, up to and including
                license revocation, will be enforced .




Some lvlichigan Child Care Home Providers DidNot Aiwqys Comply
With State Health and Safety Licensing Requirements (A-05-13-00031)                                    27
